Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




        TECHNICAL ASSISTANCE
                FOR
         QUALITY CHILD CARE:


      COMMUNITY PERSPECTIVES




                   JUNE GIBBS BROWN
                    Inspector General

                        JUNE 1999
                      0EI-07-97-00421
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region VII, Kansas City office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                                  HEADQUARTERS

Deborah Walden, Project Leader                          Linda Hall, Program Specialist

Tricia Fields, Program Analyst                          Ann O’Connor, Program Specialist

Ray Balandron, Program Analyst                          Barbara Tedesco, Technical Support Staff

Perry Seaton, Program Analyst





     To obtain copies of this report, please call the Kansas City Regional Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                 http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY

PURPOSE

To determine the perceptions of community child care leaders regarding technical assistance
provided under contract with the Administration for Children and Families (ACF), Child Care
Bureau.

BACKGROUND

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed a number
of child care programs and created a single, integrated Child Care and Development Block Grant
for low-income families. Program goals are to ensure accessibility and affordability of quality
child care for working families by promoting parental choice, encouraging States to provide
consumer education to parents, and helping States implement health, safety, licensing, and
registration standards. The program is currently funded for a total of $20.9 billion for Fiscal
Years 1996-2002.

The ACF contracts with outside entities to provide technical assistance funded through this Grant.
This technical assistance includes the coordination and support of regional and national
conferences, national workgroups, leadership forums, audio conference calls, and creation of the
National Child Care Information Center. In 1997, ACF further expanded its technical assistance
capabilities by creating the Child Care Technical Assistance Network.

While ACF provides technical assistance only to States, Territories, and Tribes, child care at the
community level is ultimately affected. To determine perceptions at this level, we surveyed
100 community child care leaders regarding their sense of the technical assistance provided and
the extent to which it meets their needs. We asked them about the format and content of
technical assistance, and to identify critical issues facing the child care community.

FINDINGS

Overall, community child care leaders are satisfied with the technical assistance

Over 90 of the 100 participants surveyed are satisfied that the technical assistance they received
addressed their concerns and was provided when they needed it. They also view the technical
assistance events as valuable opportunities to network, collaborate, and learn what other States
are doing. Their suggestions for improving technical assistance include updating invitation
mailing lists and providing invitees with more advance notice of upcoming events.

They prefer regional meetings and conferences

Seventy-five participants express a preference for regional meetings and conferences because they
are more narrowly focused and provide local or regional information which is often the key to
improving the quality of child care. Other technical assistance formats they find beneficial are the
Internet, large national conferences, mailings, targeted technical assistance, audio conference
calls, focus group events, and national workgroup meetings and forums.




                                          )))))))))))
                                               i
The National Child Care Information Center is a valuable technical assistance tool

Almost two-thirds (63) of the participants are familiar with the National Child Care Information
Center and 59 are aware of the Child Care Bulletin published by the Center. They report that
information provided by the Center is helpful and promptly provided upon request. Nearly
one-fourth (24) have also accessed the Center’s homepage on the World Wide Web and find it
beneficial.

Participants identify subsidy payments, infant/toddler care, school-age child care, welfare
reform, Head Start/child care collaboration, and inclusion of children with disabilities as the
most critical issues facing child care

Forty-four participants identify subsidy payment rates and/or sliding fee scales as a critical child
care issue. It is followed by infant/toddler care, school-age care, welfare reform, Head Start/child
care collaboration, and inclusion of children with disabilities as other critical issues.

OPPORTUNITIES FOR IMPROVEMENT

Clearly, community child care leaders think highly of the technical assistance they are receiving.
However, based on our analysis of their responses, we identified a few areas where improvements
could make this program better. We therefore suggest that ACF work with technical assistance
contractors and regional office staff to

       --      Improve advance notice and information about upcoming events.

       --      Focus technical assistance on issues community child care leaders consider
               critical.

       --      Continue to support the National Child Care Information Center, but enhance the
               technical assistance provided through its website.

AGENCY COMMENTS

The ACF concurs with our suggested opportunities for improvement and describes recent changes
in their technical assistance initiatives. Their comments are included in Appendix A.




                                          )))))))))))
                                               ii
                             TABLE OF CONTENTS

                                                                                                                                       PAGE
EXECUTIVE SUMMARY


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


Overall satisfaction          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Preference for regional meetings and conferences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Value of the National Child Care Information Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          • Information Center . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          • Website . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          • Child Care Bulletin . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


Specific technical assistance needs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


OPPORTUNITIES FOR IMPROVEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1

                            INTRODUCTION


PURPOSE

To determine the perceptions of community child care leaders regarding technical assistance
provided under contract with the Administration for Children and Families (ACF), Child Care
Bureau.

BACKGROUND

Legislation

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed the
Title IV-A child care programs (Aid to Families with Dependent Children/Job Opportunities and
Basic Skills Child Care, Transitional Child Care, and At-Risk Care) and created a single,
integrated Child Care and Development Block Grant (CCDBG), also called the Child Care
Development Fund, for low-income families. Legislation requires the ACF to provide States,
Territories, and Tribes with technical assistance focused on the achievement of Child Care and
Development Block Grant program goals. Program goals are to ensure accessibility and
affordability of quality child care for working families by promoting parental choice, encouraging
States to provide consumer education to parents, and helping States implement health, safety,
licensing, and registration standards.

Funding

Consolidation of all child care programs into the CCDBG dramatically increased the amount of
technical assistance funds available, from $2.3 million in FY’95 and $2.6 million in FY’96 to $6.6
million in FY’97 and over $7 million in FY’98. With the President’s new child care initiative
announced in January 1998, the ACF estimates that funding available for technical assistance
could increase even more. The entire CCDBG program is currently funded for a total of $20.9
billion for Fiscal Years 1996-2002.

Technical Assistance Contracts

The ACF initially awarded a contract for technical assistance to J&E Associates for Fiscal Years
1993 and 1994. The technical assistance provided through this contract focused on certificate
payment programs mandated by newly enacted legislation. This legislation required that States
have a system capable of operating a certificate payment program in place by October 1, 1992 to
allow parental choice in the selection of child care providers. Under this contract, States and
tribes were surveyed regarding their certificate program capabilities and technical assistance
needs. In addition, regional meetings and national child care conferences were conducted.

Upon expiration of the contract with J&E Associates, a new 3-year contract was awarded to
Trans-Management Systems Corporation (T-MSC) in cooperation with Collins Management

                                         )))))))))))
                                              1
Consulting. With reauthorization of the Child Care and Development Block Grant in 1996, this




                                       )))))))))))
                                            2

contract was extended for an additional year. Technical assistance provided under contracts with
these companies included convening, supporting, and/or administering

   • State, territorial, and tribal work groups,
   •	 Annual conferences, such as National State Child Care Administrators Conferences,
      National American Indian and Alaska Native Child Care Conferences, and national
      leadership forums focused on specific issues related to child care,
   • regional child care conferences, and
   • the National Child Care Information Center.

Contractor responsibilities also encompass a multitude of logistical support activities associated
with convening and coordinating workgroups and conferences, such as securing adequate meeting
facilities, hotel accommodations and presenters, compiling invitation and participant lists,
designing agendas, and providing advance notice of upcoming events. They also provide travel
arrangements and reimbursement for conference presenters, and in some instances (i.e., National
State Child Care Administrators’ Conference) for some conference attendees.

The National Child Care Information Center complements, enhances, and promotes child care
linkages and serves as a mechanism for supporting quality, comprehensive services for children
and families. To carry out their work, it provides question and answer services, an Internet and
digital library, information resources collection and dissemination, and linkages to other websites
and information sources. Questions and requests for information received by the Center come
from a variety of sources via telephone (1-800-616-2242), fax, e-mail, and contacts at meetings
and conferences. The Center also publishes a website located at http://nccic.org. This website
serves as a starting point for child care information about State and tribal program activities,
funding resources, organizations, child care research, welfare reform, health and safety, promising
practices, leadership forums, conference calendars, and other child care resources. The
Information Center activities include

  •	 dissemination of child care information in response to requests from States, Territories and
     Tribes, policymakers, parents, programs, organizations, child care providers, and the public.

  • maintenance of the website.

  •	 serving as the adjunct for the Educational Resources Information Center clearinghouse for
     child care via the National Child Care Information Center website.

  • publication of the Child Care Bulletin newsletter.

In 1997, the ACF redesigned their technical assistance approach to address emerging child care
issues and technical assistance needs. Through this redesign the ACF created a Child Care
Technical Assistance Network which was in the early stages of development at the time we




                                         )))))))))))
                                              3
conducted this study and not evaluated. This new Network is comprised of seven independent
projects, each awarded to an individual contractor. These projects and contract awardees are the

   •	 National Child Care Information Center
      (Collins Management Consulting, Inc.),

   •	 Child Care Bureau Logistical Support Project
      (Trans-Management Systems Corporation),

   •	 Healthy Child Care America Campaign
      (Inter-agency agreement between the ACF, Child Care Bureau, and the Maternal and
      Child Health Bureau, implemented through the American Academy of Pediatrics),

   •	 Tribal Child Care Technical Assistance Center
      (Native American Management Services, Inc.),

   •   Child Care Partnerships Project (The Finance Project),

   •	 Child Care Inclusion for Children with Disabilities
      (University of Connecticut Health Center ), and

   •	 Child Care Information Systems Technical Assistance Project
      (SRA International, Inc.).

These projects will allow continuation of the National Child Care Information Center, the website,
and the Child Care Bulletin. They will also play a major role in continuing to address ongoing and
emerging child care issues and technical assistance needs at both the national and State levels
through national and regional conferences, forums, and audio conference calls.

SCOPE AND METHODOLOGY

While ACF provides technical assistance only to States, Territories, and Tribies, child care at the
community level is ultimately affected. As such, this inspection focuses on the perceptions of child
care community leaders and individuals associated with improving and ensuring the quality of child
care regarding contracted technical assistance provided by the ACF, Child Care Bureau, with block
grant funds.

In determining our sample of child care community leaders, we selected 100 individuals to
participate in our study who had taken part in a technical assistance event sponsored with Child
Care and Development Block Grant funds between May 1995 and December 1997. The
participants were selected at random from 38 lists of event participants provided to us by
Trans-Management Systems Corporation, the contractor responsible for convening, supporting
and administering technical assistance during this time. Before selecting our sample, we excluded
State child care administrators from the universe because we had surveyed them regarding their
perceptions of technical assistance in a previous study. As such, our sample provided us with


                                         )))))))))))
                                              4
participants from 35 State agencies (i.e., State Departments of Human Services, Social Services,
Education, Labor, etc.), and various other agencies and organizations which include Head Start
agencies (13), non-profit agencies (11), local community organizations (5), local government
agencies (5), universities (5), child care providers (5), child care resource and referral agencies (5),
welfare affiliated organizations (3), other technical assistance providers (2), and other entities
associated with an interest in quality child care.

We conducted telephone surveys with sample participants to solicit information on each one’s
satisfaction with various aspects of the technical assistance contracts. This included the event they
attended, critical issues facing the child care community, their familiarity with the National Child
Care Information Center, and the Child Care Bulletin.

This is one of three inspections to focus on various entities’ perceptions of technical assistance
provided by the ACF, Child Care Bureau. In a previous report, “Technical Assistance for Quality
Child Care: State Administrators’ Perspectives,” we address the perceptions of State child care
administrators. A future report will address the perceptions of ACF regional office staff.

We conducted our review in accordance with the Quality Standards for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                           )))))))))))
                                                5
                                     FINDINGS

Overall, community child care leaders are satisfied with the technical assistance

We asked community child care leaders who participated in the survey to rate their overall
satisfaction with the technical assistance event attended, and whether or not the information
provided at those events addresses their concerns and was received when they needed it. In
response, over 90 of the 100 participants (91 and 92 respectively) are satisfied that the information
addresses their concerns and is provided when needed. Many child care leaders indicate that the
technical assistance events also provide them with valuable opportunities to network, collaborate,
brainstorm and learn about what other States are doing.

Some of their suggestions for improving technical assistance include updating invitation mailing
lists, getting the “right” people included in technical assistance events, and providing invitees with
more advance notice of upcoming events. They also suggest that more advance information about
the focus of upcoming events would allow them to better prepare and participate in event
discussions.

They prefer regional meetings and conferences

When asked to identify the formats they find most beneficial, 75 participants indicate they find
regional meetings one of the most beneficial technical assistance formats. Of those, 60 indicate
they prefer small regional meetings and 47 prefer large regional conferences. Thirty-two indicate a
preference for regional events in general, both large and small. They comment that smaller
meetings are better focused and, while learning about national perspectives and trends is important,
local or regional information is often the key to improving the quality of child care. Other formats
in order of preference are information provided via the Internet (33), large national conferences
(27), mailings (26), targeted technical assistance provided upon request (23), audio conference
calls (18), focus group events (18), national workgroup meetings (13), and national forums (9).

The National Child Care Information Center is a valuable technical assistance tool

The Information Center

Sixty-three of the participants surveyed are familiar with the National Child Care Information
Center. Of those, 33 indicate they have contacted the Center for information and 30 indicate that
the Center is able to provide requested information, and that information is provided in a timely
manner and is helpful.

Most participants became aware of the Center through information provided at technical assistance
events and conferences. They indicate most of their requests to the Center are for information
about what other States are doing (7) and various statistical information (5), which is consistent
with the types of requests the Center receives overall.



                                          )))))))))))
                                               6
The Website

Most participants (80) have access to the Internet, and 24 indicate they have accessed the Center’s
homepage on the World Wide Web. The Center reports over 358,000 individuals visited the
website between February 1998 and January 1999, a 62 percent increase over the previous year,
and that each accessed an average of 6 internal pages with each visit.

Survey participants indicate the website information they find most useful relates to what other
States are doing and statistical data, the same types of information they most frequently request
from the Center itself. Participants also note that the Center’s website is a good link to other sites,
and that they refer others to the website. The 24 community child care leaders that have accessed
the website report the frequency of their website access as weekly (1), monthly (7), occasional
(12), seldom (3), and no response (1). Their suggestions for improving the website are to include
more news on program policy and operation from HHS and university extension information.

The Child Care Bulletin

Fifty-nine of the participants are familiar with the Child Care Bulletin, a newsletter published by
the National Child Care Information Center. Through the Center, the ACF uses this bulletin as a
tool to disseminate information resources to approximately 3,000 subscribers. It includes
information on Federal requirements and program changes, innovative approaches to quality child
care, and examples of model programs.

Fifty-one of the participants surveyed receive copies of the bulletin on a regular basis, 39 of which
indicate they are on the mailing list. Other participants receive copies of the bulletin from other
sources (9) or via the Internet (3). All 51 comment they find the issues addressed in the bulletin to
be timely and of interest to them in meeting their needs. They indicate the bulletin is a good
general reference for child care issues (7), is a valuable tool for presenting national perspectives
and trends (6), and a good format for providing legislative activity information.

Participants identify subsidy payments, infant/toddler care, school-age child care, welfare
reform, Head Start/child care collaboration, and inclusion of children with disabilities as the
most critical issues facing child care

We presented survey participants with a list of technical assistance issue areas and asked them to
identify the three most critical. From that list 44 participants identified subsidy payments/sliding
fee scales as a critical child care issue. It is followed by infant/toddler care (36), school-age child
care (31), welfare reform (28), Head Start/child care collaboration (27), and inclusion of children
with disabilities (26) as other child care issues they consider critical.

We also asked them to further refine their selection by naming one of the three selected issues as
“most critical.” Again, subsidy payments/sliding fee scales was selected as the most critical issue
(16). It is followed by welfare reform (11), infant/toddler care (9), and Head Start/child care
collaboration (8). Survey participants comment that adequate subsidy payments are important to
attract good child care providers, which in turn will affect the quality of child care being provided.


                                           )))))))))))
                                                7
They also note that quality child care must be available for welfare reform to be successful. Other
issues participants identified as critical, but not included in our list, are staffing and wages, child
care during non-traditional hours, transportation, child care in rural areas, and blending child care
funding streams. A list of critical issues most noted by child care community leaders is outlined
below.


                               Critical Child Care Issues
                                                       Number of Survey Participants
                                                            Who Selected Issue As:

                                                                               Most
                       Issue                                   Critical        Critical

       Subsidy Payments and Sliding Fee Scales
                44              16
       Infant/Toddler Child Care
                              36               9
       School-Age Child Care
                                  31               7
       Welfare Reform
                                         28              11
       Head Start/Child Care Collaboration
                    27               8
       Inclusion of Children with Disabilities
                26               7
       Provider Training Programs
                             17               5
       Collaboration/Coordination with Other Agencies
         13               4
       Provider Accreditation
                                  9               0
       Health and Safety
                                       7               2
       Child Care Resource and Referral
                        7               3
       Family Centered Child Care
                              6               2
       Sharing Information with Other States
                   5               0

       Number of Respondents = 100



In addition, we asked participants to identify issues that may become critical in the future. In
response they indicate certain broad issues such as salaries, welfare reform, provider accreditation,
child care for “working poor” families, infant/toddler child care, and school-age child care as
projected critical issues for the future.




                                           )))))))))))
                                                8
 OPPORTUNITIES FOR IMPROVEMENT

Clearly, community child care leaders think highly of the technical assistance they are receiving.
However, based on our analysis of their responses, we identified a few areas where improvements
could make this program better. We therefore suggest that ACF work with technical assistance
contractors and regional office staff in the following three areas.

Improve advance notice and information about upcoming events

   ! Periodically update invitation lists.

   ! Furnish those invited with adequate advance notice of upcoming events.

   ! Provide invitees with specific information about the focus of upcoming events.


Focus technical assistance events on issues community child care leaders consider critical

   !   Subsidy payment rates and sliding fee scales

   !   School-age child care

   !   Welfare reform

   !   Head Start/child care collaboration

   !   Inclusion of children with disabilities

   !   Infant/Toddler child care


Continue to support the National Child Care Information Center, but enhance the technical
assistance provided through its website

   !	 Provide technical assistance participants with more information about the website and its
      use.

   !	 Make available more information about State practices and policies, successful program
      models, and upcoming technical assistance events through the website.

AGENCY COMMENTS

The ACF concurs with our suggested opportunities for improvement and describes recent changes
in their technical assistance initiatives. Their comments are included in Appendix A.




                                         )))))))))))
                                              9
APPENDIX A





  )))))))))))
      A - 1

)))))))))))
    A - 2

)))))))))))
    A - 3

)))))))))))
    A - 4

)))))))))))
    A - 5

)))))))))))
    A - 6

